OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID’S
RESPONSE TO THE GLOBAL
FOOD CRISIS
AUDIT REPORT NO. 9-000-10-007-P
June 4, 2010




WASHINGTON, DC
June 4, 2010

MEMORANDUM

TO:      	         AA/AFR, Earl Gast

FROM: 	            IG/A/PA, Director, Steven H. Bernstein /s/

SUBJECT: 	 Audit of USAID’s Response to the Global Food Crisis
           (Audit Report No. 9-000-10-007-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we have carefully considered your comments on the draft report, and have included the
comments in their entirety in appendix II of the report.

This report includes two recommendations for your corrective action. On the basis of
your written comments, in which you describe actions taken or initiated to address our
concerns, the audit considers that management decisions have been reached on both
recommendations. Determination of final action will be made by the Audit, Performance
and Compliance Division upon completion of the planned corrective actions for these
recommendations.

I want to express my sincere appreciation for the cooperation and courtesy extended to
my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://www.usaid.gov/oig
CONTENTS

Summary of Results ....................................................................................................... 1



Background ..................................................................................................................... 2



          Audit Objective ...................................................................................................... 2



Audit Findings ................................................................................................................. 3



          Unrealistic Targets Set for West African Food Development Programs ............... 4



          Offices Responsible for West African Food Development Programs Are 

          Understaffed.......................................................................................................... 6



Evaluation of Management Comments ....................................................................... 10 



Appendix I – Scope and Methodology ........................................................................ 11 



Appendix II – Management Comments ....................................................................... 13 



Appendix III – Scope of Review by Mission ............................................................. 14 



Appendix IV – Selected Indicators, Targets, and Results ..................................... 15

SUMMARY OF RESULTS

Development assistance from the Global Food Security Response (GFSR) is a $200
million supplemental appropriation available from October 1, 2008, until September 30,
2010, to address the global food crisis. After interagency collaboration and the
subsequent congressional mandate, USAID designated $128 million1 of the $200 million
GFSR supplemental funding to West Africa and specifically to six USAID missions:
Ghana, Liberia, Mali, Nigeria, Senegal, and the West Africa Regional Mission.2 With this
GFSR funding, the missions extended their agriculture programs with the goals of
increasing agriculture productivity and production, increasing regional trade in food
staples, and promoting sound market-based principles. (See page 2.)

USAID’s West African development assistance programs in response to the global food
crisis are achieving their objectives. The results from the implementing partners are, for
the most part, meeting or exceeding their targets, and according to the results reviewed
and objectives assessed, the agriculture development programs are on track to meet
their main goals. (See page 3.)

In the first year of funding, GFSR programs experienced challenges owing to the short
timeframe in which USAID had to plan and implement the programs and the low staffing
levels in the economic growth and agriculture offices. (See pages 3, 4.) Although GFSR
programs are achieving their objectives, West African missions that received GFSR
supplemental funding reported that many of their results were significantly different from
the indicators’ targets, indicating that the performance targets were not realistic. (See
page 4.) Additionally, the West African mission offices that were given the GFSR
supplemental funding are understaffed. As a result, mission staff is overextended, and
with additional funding expected, their workload may be unsustainable. (See page 6.)

This audit recommends that:

    •	 West African missions verify the validity of program targets set by the
       implementing partners. (See page 5.)

    •	 The Africa Bureau implement a mission human capacity assessment prior to
       awarding additional GFSR funds. (See page 9.)

On the basis of the management comments, management decisions have been reached
on both recommendations. Determination of final action will be made by the Audit,
Performance and Compliance Division upon completion of the planned corrective
actions. (See page 10.) Management comments are included in their entirety in
appendix II.



1
  The remaining $72 million was appropriated as follows: $50 million to local and regional

procurement in East Africa, $20 million to research and development, and $2 million to USAID’s 

Africa Bureau. 

2
  The West Africa Regional Mission is in Accra, Ghana, and is jointly located with USAID/Ghana. 




                                                                                              1
BACKGROUND

From March 2007 to March 2008, global food prices increased an average of 43 percent.
These rising prices led to an increase in food insecurity among poorer populations. A
number of factors contributed to this spike in food prices, including increased consumer
demand, rising energy costs, and lower crop yields. Globally, the majority of countries
facing food security crises are in Africa, with more than 120 million Africans suffering
chronic hunger.      In West Africa, eight countries have experienced riots and
demonstrations related to high food prices, posing threats to peace and security.

In fall 2008, after an interagency collaboration, the Supplemental Appropriations Act,
2008 (Public Law 110-252) provided $200 million in development assistance funding to
USAID, for fiscal years (FY) 2009 and 2010, in order to address the global food crisis.
The goals of this multiyear response were to support actions to increase agriculture
productivity and production, increase regional trade in food staples, and promote sound
market-based principles. USAID’s Africa Bureau administered the supplemental Global
Food Security Response (GFSR) funding and allocated $128 million1 of the $200 million
to provide agriculture development assistance regionally to West Africa. GFSR funding
is expected to continue providing agricultural program support well into FY 2010.

Prior to the global food crisis funding, USAID’s agriculture funding for offices and
programs in West Africa was relatively low. The supplemental funding allowed them to
expand programming. The Africa Bureau allocated funding within West Africa to the
Ghana, Liberia, Mali, Nigeria, Senegal, and West Africa Regional2 missions, as these
countries were determined by the Africa Bureau to have the potential to significantly
increase their output of staple foods and increase related economic growth in the region.
(See appendix III for the funding amount by country.) The missions that received
supplemental funds used the additional funding to expand existing agriculture programs
or initiate new ones. Each program, from policy to production, sought to increase
access to food for the poor and stimulate private investment needed to sustain the
growth process and build resilience to economic shocks. Though GFSR efforts are
ongoing, this audit covers the period from initial GFSR planning in 2008 through the
conclusion of audit fieldwork on December 17, 2009.

AUDIT OBJECTIVE
This audit was included in the Office of Inspector General’s FY 2009 annual plan and
was conducted to answer the following question:

   •	 Are USAID’s West African development assistance programs in response to the
      global food crisis achieving their objectives?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       2
AUDIT FINDINGS

The Global Food Security Response (GFSR) development assistance programs are
achieving their overall objectives that align with the goals of: (1) increasing agricultural
productivity and production, (2) increasing regional trade in food staples, and (3)
promoting sound market-based principles.

All six participating missions worked with implementing partners to establish or continue
agricultural programs that directly support GFSR objectives. Four of these six missions
reported results that met or exceeded indicator targets in 15 of 16 sampled instances
(programs sampled in 2 remaining missions have not yet had sufficient time to produce
results). The missions made gains despite challenges caused by the short timeframe in
which USAID had to plan and implement programs and the low staffing levels in the
missions’ economic growth and agriculture offices. Because it has been only a year
since GFSR was initially funded, it is too early to determine the long-term impact of the
development assistance programs on the food crisis in West Africa. However, this is not
to say that program activities have not produced meaningful and measurable results that
align with GFSR objectives and are on track to meet their main goals.

Examples of the results achieved in the first year of GFSR and their projected impact
include the following:

   •	 Integrated Initiatives for Economic Growth in Mali (IICEM): During fiscal year
      (FY) 2009, the IICEM program funded land resource management projects in the
      Sikasso and Mopti regions. One project used water-harvesting technology to
      develop dams in regions where flooding occurred during the rainy season. A
      second project financed and installed water pumps in a region where cultivatable
      soil existed with limited access to sustainable irrigation. In total, these projects
      increased farmable land by 2,784 hectares, which supports the GFSR objective
      of increasing agricultural productivity and production.

   •	 Maximizing Agricultural Revenue and Key Enterprises in Targeted Sites
      (MARKETS): MARKETS, a program in Nigeria, provided short-term agricultural
      sector productivity training to 33,060 individuals in a number of regions. Training
      covered improved technologies, management practices, and administrative
      systems. Training in crop processing, plant maintenance, manufacturing
      practices, and fish marketing and hatchery techniques provided local farmers
      with the capacity to increase agricultural productivity and production, which is the
      first GFSR goal.

   •	 Agribusiness and Trade Promotion (ATP): USAID/West Africa Regional’s ATP
      project increased the number of regional Market Information System users by
      8,000 individuals. This system provides bid and offer prices, information on
      contracts, and alerts on stock flows in and out of a number of agricultural
      commodity warehouses. Management information system transaction volume
      can potentially increase regional trade in food staples, which is a GFSR goal.

Appendix IV presents selected indicators, targets and results from the GFSR programs
in each participating country.


                                                                                          3
As mentioned above, during the first year of GFSR funding, the missions had some
challenges related to staffing. As evidence of these challenges, situations such as the
following arose:

   •	 As of the end of fiscal year 2009, USAID/Ghana had not established targets or
      indicators, or reported results for the Agricultural Development and Value Chain
      Enhancement program. Partly because of a lack of staff in the mission’s Trade,
      Agriculture, and Private Sector Office and contracting office, the agreement was
      signed late, in July 2009, thereby limiting program development time.

   •	 Some of the missions receiving GFSR supplemental funding did not have the
      personnel in their agriculture or economic offices to properly plan and implement
      the expanded programming, and as a result had to use temporary-duty support.

Although the GFSR programs are achieving the objectives laid out for them, the
following two issues require management attention if USAID is to continue GFSR
program achievement: (1) reevaluation of indicator targets, which in 2009 were not
realistically set; and (2) analysis and adjustment of staffing levels in the offices
responsible for GFSR programs, which were understaffed in 2009.

Partners Set Unrealistic Targets
for West African Food
Development Programs

Summary: USAID policy states that both the implementing partners and the USAID
missions have a responsibility to set, review, and assess the relevance and
appropriateness of indicators and established targets. West African missions that
received Global Food Security Response supplemental funding reported that many of
their results were significantly higher or lower than the indicators’ targets, indicating that
the performance targets were not realistic. The variance in results was due to conflicting
interpretations of the indicators and to timing issues, including an expedited Global Food
Security Response planning period and differing agriculture seasons. Use of unrealistic
indicators and targets will not assist in achieving overall program objectives or
measuring program success.

Both the implementing partners and the USAID missions have a responsibility to
appropriately set indicators and targets and to review and assess their relevancy on a
periodic basis. According to Performance Monitoring and Evaluation TIPS No. 8,
“Establishing Performance Targets,” a publication by the USAID Center for Development
Information and Evaluation, and a supplemental reference from Automated Directives
System (ADS) chapter 203, “Assessing and Learning,” targets should be based on
analysis of what is realistic to achieve, given factors such as the stage of program
implementation, resources available, and country conditions. Additionally, ADS 203
states that, “USAID Missions/Offices should use performance information to assess
progress in achieving results and to make management decisions.” Moreover,
ADS 200.2, “Primary Responsibilities,” states that USAID missions must develop the
capacity to manage foreign assistance programs and ensure that teams have the
necessary expertise, authorities, resources, and support to achieve their objective.


                                                                                            4
Finally, according to most GFSR contracts, implementing partners are expected to
ensure that indicators are adequately defined to allow for measurement and to assess,
as necessary, the baselines and targets for the program indicators.

However, five of the six West African missions that received GFSR supplemental
funding reported indicator results that were significantly higher or lower than their
targets, suggesting that the performance targets set during the program planning
process were not realistic.33 In a review of the largest programs at USAID/Liberia,
USAID/Mali, USAID/Nigeria, USAID/Senegal and USAID/West Africa, 15 of 20 sampled
indicators met or exceeded their targets, in several cases by more than twice the
amount. In one example, USAID/Mali’s Integrated Initiatives for Economic Growth in Mali
program, a target established for FY 2009 was to train 400 individuals on the trade and
investment environment. The partner reported providing training to 1,968 individuals, an
almost 400-percent achievement rate. Other program indicators fell short of their targets.
For example, USAID/Liberia’s Liberia Community Infrastructure Project II planned to add
2,333 hectares to land under improved technologies or management, but added only
1,864 hectares. Additionally, all four of USAID/Senegal’s reviewed targets were unmet
as of the fiscal yearend, as the program was still in the implementation stage. Appendix
IV contains a list of selected indicators, their targets, and their results.

The timeframe for planning and implementing GFSR programs throughout West Africa’s
six missions was limited, which led to a hastened process for setting and reviewing
program targets. According to some missions and their implementing partners, some
differences between targets and results were attributed to conflicting interpretations of
indicator meaning. However, as those same officials acknowledged, other differences
were plainly the result of timing issues. They include programs initiated later in the year
that did not yet have meaningful activity results, and variances caused by the
misalignment of the agricultural and fiscal year calendars.

Use of unrealistic indicators and targets will not assist in achieving overall program
objectives or accurately measure program success. Performance targets should be
recalibrated for the second year of GFSR, taking into account funding levels, previous
targets, and actual results for program activities. Without a reevaluation of program
targets, it will be difficult for the missions to manage the GFSR program toward
realistically achievable results and to accurately evaluate the performance and impact of
the program going forward.

    Recommendation 1: We recommend that USAID/Africa Bureau require the
    West African missions that received Global Food Security Response
    supplemental funding in fiscal year 2009 reevaluate and document the validity of
    existing targets on the overall success of program activities.




3
  For the selected program, USAID/Ghana had not yet established indicator targets or reported
results as of the fiscal yearend, due to that program agreement’s late signing in July 2009.



                                                                                           5
Offices Responsible for West
African Food Development
Programs Are Understaffed
Summary: Strategic objective 1 and 2 of the USAID Human Capital Strategic Plan
FY2009–FY2013 states that the Agency should strategically align, ready, and mobilize
staff with Agency priorities. In addition, the AID Food and Agriculture Strategy document
emphasizes the importance of the availability of experienced employees for agriculture
development assistance. However, the West African missions’ offices that were given
GFSR supplemental funding are overextended. The GFSR participating offices became
overextended when staffing levels did not increase in line with the GFSR supplemental
funding, therefore making these offices understaffed. Assessing the staffing levels of
offices receiving large amounts of supplemental funding, and adjusting obligations as
needed, are crucial aspects of program success. Without an understanding of staffing
capability, USAID cannot expect sustainable program development from missions
receiving GFSR funding.

According to USAID’s Human Capital Strategic Plan’s FY2009–FY2013 strategic
objective 1, the Agency should strategically align staff with Agency priorities. According
to strategic objective 2, the Agency should increase staff mobility and readiness to
rapidly meet emerging priorities. These objectives include procedures for maintaining
the appropriate Agency size with appropriate competencies and leadership ability;
increased readiness to respond to high-need areas; constant work on recruitment; and
policy flexibility to help fill gaps across USAID. Additionally, the AID Food and
Agriculture Strategy document emphasizes the importance of having trained and
experienced people available for food and agriculture development assistance, and also
states that all operational units involved in food aid development should give the highest
priority to establishing and maintaining positions with qualified staff.44

However, despite this criteria and the emerging focus on agriculture development, all six
West African offices given GFSR supplemental funding noted that their agriculture or
economic offices were overextended, and this audit concurs that these missions have
been working at unsustainable levels due to staffing challenges. For example,
USAID/Ghana had no direct-hire staff on its Economic Growth team at the time the
supplemental funding was announced. Therefore, a year after the GFSR program was
initiated, USAID/Ghana’s largest program is not yet able to report results; it needed
additional planning time to hire capable staff, thus pushing back the program’s start date.

The GFSR participating offices became overextended when staffing levels did not
increase in line with the GFSR supplemental funding. Even at staffing levels at or near
their approved number of positions, missions noted that demands resulting from an
increased GFSR workload were a serious concern. Specifically, in FY 2009, three of the
participating missions had unfilled positions. In September 2009, USAID/Ghana’s
Trade, Agriculture and Private Sector Office had only 5 of 8 positions filled; in July 2009,
USAID/Liberia’s Economic Growth Office had only 7 of 9 positions filled; and in October

4
  Aid Food and Agriculture Strategy is an ‘Additional Help’ document referenced in both
Automated Directives System 200.5 and 203.5, originally dated 1983, and last updated in 2000.
Though currently under revision, the content referenced is not anticipated to change significantly.



                                                                                                 6
2009, USAID/Mali’s Agriculture and Economic Growth Office had only 8 of 16 positions
filled. (See Figure 1.)

                                                            Figure 1. Mission Staffing Levels, 2009

                                         18
                                                                                   16
 Employees in GFSR Responsible Offices




                                         16

                                         14

                                         12
                                                                                                                         10 10
                                         10                            9
                                                     8                         8
                                          8                        7
                                                                                                            6    6
                                          6     5                                            5   5

                                          4

                                          2

                                          0
                                              USAID/Ghana    USAID/Liberia   USAID/Mali   USAID/Nigeria USAID/Senegal   USAID/West
                                                                                                                          Africa

                                                Positions Filled                          Positions Authorized

Note: Staffing figures were obtained from Washington and mission personnel. Specific audit
procedures to validate the accuracy of the figures were not performed.


The GFSR participating offices were additionally overextended when staffing levels did
not increase in line with the GFSR supplemental funding. For example, from FY 2008 to
FY 2009, funding to USAID/Mali’s Agriculture and Economic Growth Office increased by
more than $33 million, from roughly $5 million to $38 million, but its staff increased by
only two employees. For the same year, funding in Liberia increased approximately
threefold, while the number of positions filled in the office increased by only two. With
the exponential increase in FY 2009 funding, the offices’ workload increased through
additional strategic, programmatic, administrative, contracting, and monitoring and
evaluation activity. (See Figure 2.)




                                                                                                                                     7
                   Figure 2. Funding/Staff Movement at Participating Missions




                        USAID/Ghana                                                    USAID/Liberia

   40                                                               40
   35                                                 33                                                      34
                                            37                      35
   30                                                               30                              25
   25                                                               25
   20                                                               20
                                  Historical Staff
   15                                Data Not                       15           11
                                    Available                                             8
   10          8      7                                             10
                                                                                3                         7
    5                                          5                     5
                                                                                              5
    0                                                 (Requested)    0




                                                                                                              (Requested)
        2007




                      2008




                                        2009




                                                                          2007




                                                                                       2008




                                                                                                   2009
                                                         2010




                                                                                                                 2010
                          USAID/Mali                                                   USAID/Nigeria


   40                                                               40
   35                                     38                        35
                                                                                                       35     29
   30                                                33             30
   25                                                               25
   20                                                               20
   15                                                               15
   10      7          5                                             10
                                                                            5         5            5
    5                                   8                           5
               6             6                                              4                 3
    0                                                               0
                                                     (Requested)




                                                                                                              (Requested)
        2007




                      2008




                                       2009




                                                                         2007




                                                                                      2008




                                                                                                   2009
                                                        2010




                                                                                                                 2010




Note: Staffing figures were obtained from Washington and mission personnel, and funding figures
were obtained from Agency databases. Specific audit procedures to validate the accuracy of the
figures were not performed.




                                                                                                                            8
          Figure 2. Funding/Staff Movement at Participating Missions—continued




                   USAID/Senegal                               USAID/West Africa


   35                                                 45
                                        30            40
   30                              33
                                                      35                      40      30
   25
                                                      30
   20                                                 25
                                                      20  17
   15
                                                      15        10
   10      6       6           6
                     10
    5                                                    10                  10
               1   1
                                  5         6
    0                                   (Requested)    0




                                                                                       (Requested)
        2007




                   2008




                              2009




                                                        2007




                                                                2008




                                                                             2009
                                           2010




                                                                                          2010
Note: Staffing figures were obtained from Washington and mission personnel, and funding figures
were obtained from Agency databases. Specific audit procedures to validate the accuracy of the
figures were not performed.

In FY 2010 and onward, increases in agriculture development and GFSR programs are
anticipated. The current workload, as of FY 2009, may be unsustainable at the current
staffing levels. If assessments and appropriate adjustments are not made, ineffective
programming may result. If not for the exemplary efforts of mission staff, first year
GFSR programs might not have achieved their objectives.

Assessing the missions’ personnel competencies, abilities, and readiness and adjusting
funding or resources as needed are aspects of program success that should be taken
into consideration during the planning phase for future appropriations. This audit
concludes that without appropriate assessments, USAID cannot expect sustained
program development from missions receiving GFSR funding.

   Recommendation 2: We recommend that USAID/Africa Bureau develop and
   implement a plan to assess each mission's personnel competencies, abilities,
   and readiness prior to the obligation of any future Global Food Security
   Response development assistance funds, and adjust funding or resources to
   properly support sustained program development.




                                                                                                     9
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID’s Africa Bureau concurred with both
recommendations to support Global Food Security Response (GFSR) programs in
achieving their objectives. Upon evaluation of management’s response to the draft
report, received May 20, 2010, this audit determined that management decisions have
been reached on both recommendations. An evaluation of management comments
follows.

Recommendation 1: The Africa Bureau concurred with the recommendation. The
Bureau will request that missions update their previously established fiscal year 2010
targets against approved budget allocations by September 30, 2010. This updating will
allow mission staff and partners to verify target validity and update targets as necessary.
A management decision has been made, and final action can occur once the Africa
Bureau has completed the planned actions as indicated in management comments.

Recommendation 2: The Africa Bureau concurred with the recommendation and noted
that the Bureau has conducted staffing reviews of all GFSR operating units. By
September 30, 2010, the Africa Bureau will develop a plan to address the identified
staffing needs. A management decision has been made, and final action can occur
once the Africa Bureau has completed the planned actions as indicated in management
comments.




                                                                                        10
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

This audit covered the $128 million in development assistance funding provided to six
USAID missions in West Africa under the Supplemental Appropriations Act, 2008, Public
Law 110-252, also referred to as the Global Food Security Response (GFSR). (See
appendix III for funded amounts by country.) This audit focused on the degree to which
the goals for USAID’s development assistance programs aligned with those of the
overall GFSR and the degree to which programs achieved their objectives for fiscal year
(FY) 2009.

This audit covers the period from initial GFSR planning in 2008 through the conclusion of
audit fieldwork on December 17, 2009. Audit fieldwork was conducted from September
28 through December 17, 2009, from USAID/Washington. Field visits to the Bamako,
Mopti, and Sikasso regions in Mali were completed between September 28 and October
16, 2009. Field visits were not performed in other countries.

In planning and performing the audit, the Office of Inspector General gained an
understanding of planned program objectives, of both missions and Agency, and the
programs’ projected outcomes as of the end of FY 2009. In addition, the audit team
reviewed relevant regulations and USAID policies and procedures related to
development assistance programming. Furthermore, the audit team assessed
management controls for ensuring compliance with laws, regulations, and policies
regarding monitoring and evaluation. This information was gathered primarily from
participating missions through interviews. Additional inquiry and observation procedures
were performed during the Mali field visits to assess internal controls.

The audit team was able to review targets and results for only five of the six West
African missions that received GFSR funding:                USAID/Liberia, USAID/Mali,
USAID/Nigeria, USAID/Senegal, and USAID/West Africa. USAID/Ghana secured its first
program contracts in July 2009, had only limited time for implementation, and as of fiscal
yearend had not set indicator targets.

Methodology

To answer the audit objective, the Office of Inspector General conducted interviews with
USAID’s Africa Bureau staff, staff from the agriculture or economic offices of all missions
receiving GFSR supplemental funding, and with implementing partners for USAID/Mali
based in Washington, DC, and in Mali. The audit team reviewed documentation from
the implementing partners, missions, and the Africa Bureau, including planning
documents; contractual agreements; and progress, monitoring, and results reports.


                                                                                        11
                                                                              APPENDIX I 




The audit team conducted interviews with the Africa Bureau staff and reviewed available
documentation to understand and evaluate the GFSR planning process. The audit team
then selected the partners that managed either the largest GFSR-funded program or the
earliest GFSR-funded program for each mission. The audit team then selected the
largest GFSR-funded program run by the selected implementing partner. Then, rather
than basing indicator selections on a materiality threshold, the team used a risk-based
approach to judgmentally select four indicators from each selected program deemed to
be representative of the entire population. These were then compared with the
corresponding results to assess program progress. Following the review of results,
program indicators were aligned with the missions’ indicators as shown in planning
documents. The mission indicators were aligned with the overall GFSR goals, as
explained in the 45 Day Report to Congress.5 While a statistical sample was not used,
the results of the analysis are important and pervasive enough to bring to management’s
attention.




5
  The 45 Day Report to Congress is a report required by the Supplemental Appropriations Act,
2008, that was due to Congress 45 days after the issuance of Public Law 110-252. The report
was incorporated the Government’s interagency approach to GFSR, which included the response
framework, supported the regional and country focus, and stated funding objectives.



                                                                                         12
                                                                          APPENDIX II 




MANAGEMENT COMMENTS



MEMORANDUM

TO: 	         IG/A/PA, Steven Bernstein

FROM: 	       DAA/AFR, Franklin Moore /s/

SUBJECT:	     Response to the Audit of the USAID’s Response to the Global Food
              Crisis (Audit Report No. 9-000-10-XXX-P)

       On March 5, 2010, the Africa Bureau received the draft report on the subject
audit. The draft audit report contains two recommendations. The purpose of this
memorandum is to provide a management response on each of the two
recommendations.

Recommendation No.1: Unrealistic Targets Set for West African Food
Development Programs

Response to No.1: While recognizing the vagaries inherent in establishing more
realistic targets and indicators especially under the “hastened” Global Food Security
Response (GFSR) development process, the Africa Bureau concurs with the
assessment and recognizes that some of the current targets for these programs are
problematic. Missions set their FY 2010 targets last November as part of the
Performance Plan and Report (PPR), but prior to finalization of the Agency’s FY 2010
appropriations. Once FY 2010 budget allocations are approved by F, Washington staff
will request that missions update their 2010 targets against their FY 2010 approved
budget allocation and submit their revised targets by September 30, 2010. This exercise
will provide mission staff and partners an opportunity to verify and validate existing
targets, where applicable, for the West Africa food development programs and, where
necessary, to establish more realistic targets.

Recommendation No. 2: Offices Responsible for West African Food Development
Programs are Understaffed

Response to No. 2: Noting that all GFSR funds have already been obligated, the Africa
Bureau agrees with the second recommendation. To address this need and
successfully move forward with the Feed the Future Initiative (FTF), the Africa Bureau
has conducted management audits on all operating units participating in FTF to identify
staffing needs. Washington staff, led by senior management and with consultation from
the Agency’s Human Resources Office, will develop a plan to address the identified
increased staffing needs by September 30, 2010.




                                                                                      13
                                                                             APPENDIX III 




SCOPE OF REVIEW BY
MISSION
The Supplemental Appropriations Act, 2008 (Public Law 110-252) provided $200 million
in development assistance funding to USAID for fiscal years 2009 through 2010.
USAID’s Africa Bureau allocated $128 million1 of the $200 million to provide agriculture
development assistance to West Africa. This appendix further details the Global Food
Security Response (GFSR) supplemental funding received by each West African
mission, the implementing partner/program, and GFSR funding by program that was
selected for review during this audit.6

    USAID      Total GFSR       Selected Implementing         Selected Program and
    Mission     Funding                 Partner6                   GFSR Funding
                                Agricultural Cooperative         Ghana Agricultural
                               Development International      Development and Value
    Ghana       $25 million        and Volunteers in           Chain Enhancement, a
                                 Overseas Cooperative        Farmer-to-Farmer Program
                                      Assistance                      $12 million
                                                                 Liberia Community
                               Development Alternatives,
    Liberia     $10 million                                    Infrastructure Project II
                                        Inc.
                                                                      $5 million
                                                              Integrated Initiatives for
      Mali      $20 million       Abt Associates, Inc.        Economic Growth in Mali
                                                                       $8 million
                                                               Maximizing Agricultural
                                                                  Revenue and Key
                                Chemonics International
    Nigeria     $25 million                                    Enterprises in Targeted
                                        Inc.
                                                                         Sites
                                                                      $23 million
                                                              Support for Accelerated
                                International Resource         Growth and Increased
    Senegal     $23 million
                                         Group                     Competitiveness
                                                                      $11 million
     West                                                     Agribusiness and Trade
     Africa     $25 million       Abt Associates, Inc.                Promotion
    Regional                                                           $1 million




6
  Each mission had multiple implementing partners/programs that received GFSR supplemental
funds. The implementing partners listed were selected for review because they managed either
the largest GFSR-funded program or the earliest GFSR-funded program for the respective
mission. As each partner may have implemented more than one program for the mission, only
the relevant GFSR program was selected for review.



                                                                                     14
                                                                             APPENDIX IV



SELECTED INDICATORS, 

TARGETS, AND RESULTS

This appendix details, by mission, the indicators selected for review during this audit.
The results listed were reported by the implementing partners for fiscal year 2009.77

Ghana

Program: Agricultural Development and Value Chain Enhancement (ADVANCE)

The agreement for this program was signed in July 2009.               As of fiscal yearend,
indicators and targets had not yet been established.

Liberia

Program: Liberia Community Infrastructure Project II (LCIP II)

                    Indicator                     Target    Result       Variance (%)
Number of additional hectares under
improved technologies or management
practices                                           2,333     1,864                     -20
Number of persons participating in workforce
development program                                 2,910     4,531                     56
Number of farmers trained in agricultural
sector productivity                                 2,970     3,506                      18
Number of microenterprises receiving
business development services, including for
example, value chain                                1,110     3,832                     245

Mali

Program: Integrated Initiatives for Economic Growth in Mali (IICEM)

                   Indicator                      Target    Result       Variance (%)
Number of additional hectares farmed using
improved technologies or management
practices                                           2,500     2,784                      11
Number of rural households benefiting directly
from U.S. Government assistance                     3,000     4,757                     59
Value of the U.S. Government-supported
special funds loans issued this year (in
millions of West African francs)                     565       673                      19
Number of participants in the training sessions
on the trade and investment environment              400      1,968                     392


7
 Targets and results were obtained from mission and implementing partner reports. Specific
audit procedures to validate their accuracy were not performed.



                                                                                     15
                                                                                      APPENDIX IV



Nigeria

Program: Maximizing Agricultural Revenue and Key Enterprises in Targeted Sites
(MARKETS)

                    Indicator                       Target           Result       Variance (%)
Number of farmers, processors, and others
who have adopted new technologies or
management practices as a result of U.S.
Government assistance                                27,000           97,039                     259
Area under improved management                       27,500           27,592                       0
Number of individuals who have received
short-term agricultural sector productivity
training with U.S. Government assistance             18,000           33,060                     84
Number of bank and Microfinance Institution
loans facilitated for clients                        30,000           83,304                     178

Senegal

Program: Support for Accelerated Growth and Increased Competitiveness (SAGIC)*
                                                                 9
                  Indicator                        Target        Results          Variance (%)
Number of individuals who have received U.S.
Government-supported short term agricultural
environment enabling training                             20                  0              -100
Number of women’s
organizations/associations assisted as a
result of USAID intervention                              50                  0              -100
Number of public-private partnerships formed
as a result of a USAID assistance                            2                0              -100
Number of rural households that benefited
directly from U.S. Government assistance               3,000                  0              -100
*Owing to late agreement signing in the fiscal year, no activity results were available.




                                                                                                   16
                                                                             APPENDIX IV


West Africa Regional

Program: Agribusiness and Trade Promotion (ATP)

                    Indicator                  Target       Result       Variance (%)
Number of institutions/
organizations making significant
improvements in their clients based on
recommendations of ATP-supported
assessments                                             3            3                   0
Number of users of regional market
information system                               5,000        8,000                     60
Number of institutions/
organizations undergoing capacity/
competency assessments as a result of U.S.
Government assistance                                   4        23                     475
Number of individuals who have received
short-term agricultural enabling environment
training as a result of U.S. Government
assistance (men and women)                        250          468                      87




                                                                                          17
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave., NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
